CERTIFICATE OF SERVICE
I, Abdul Mohammed, the Pro Se Petitioner, hereby certifies that on this 5th
Day of November 2020, I caused a copy of the Writ for Certiorari of the
Petitioner to be served by email on the following counsel of the Respondents:
Emily Bothfeld,
Robbins Schwartz,
55 W. Monroe St., Suite 800,
Chicago, Illinois 60603,
p: 312.332.7760 f: 312.332.7768,
ebothfeld@robbins- schwartz .com
Attorney for Respondents
I further certify that all parties required to be served have been served.
Respectfully submitted,
Abdul Mbhpnrpadcl *
Pro Se Petitioner
258 E. Bailey Rd, Apt C,
Naperville, IL 60565
630-854-5345
amohammed@hotmail.com

November 5, 2020

11

